(~~'E.      DEPARTMENT OF HEALTH & HUMAN SERVICES                                        Office of Inspector General

"">",~
 ~~<l3'at
                                                                                         Region IX
                                                                                         Office of Audit Services
                        17                                                               90 - yth Street, Suite 3-650
                                                                                         San Francisco, CA 94103



            Report Number: A-09-09-00079

            Mr. Toby Douglas
            Chief Deputy Director of Health Care Programs
            California Department of Health Care Services
            1501 Capitol Avenue, MS 0002
            Sacramento, California 95814

            Dear Mr. Douglas:

            Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
            General (OIG), final report entitled "Review of Medicaid Credit Balances at French Hospital
            Medical Center as of February 28,2009." We will forward a copy of this report to the HHS
            action official noted below.

            Pursuant to the Freedom ofInformation Act,S U.S.C. § 552, OIG reports generally are made
            available to the public to the extent that information in the report is not subject to exemptions
            in the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

            If you have any questions or comments about this report, please direct them to the HHS
            action official. Please refer to report number A-09-09-00079 in all correspondence.

                                                          Sincerely,



                                                          Lori A. Ahlstrand
                                                          Regional Inspector General
                                                           for Audit Services


            Enclosure


            HHS Action Official:

            Ms. Jackie Gamer, Consortium Administrator
            Consortium for Medicaid and Children's Health Operations
            Centers for Medicare & Medicaid Services
            233 North Michigan Avenue, Suite 600
            Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

  MEDICAID CREDIT BALANCES

     AT FRENCH HOSPITAL

       MEDICAL CENTER

   AS OF FEBRUARY 28, 2009





                    Daniel R. Levinson

                     Inspector General


                        June 2009

                      A-09-09-00079

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide lIDS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: " ... when an
overpayment is discovered ... the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made."

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider's responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

French Hospital Medical Center (French), part of the Catholic Healthcare West system, is an
acute care hospital located in San Luis Obispo, California. French reported that it was
reimbursed by the State agency approximately $1.4 million for Medicaid services during
calendar year 2008.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in French's
accounting records as of February 28, 2009, for inpatient and outpatient services represented
overpayments that French should have returned to the Medicaid program.
SUMMARY OF RESULTS

As of February 28, 2009, French's Medicaid credit balances did not include overpayments that
should have been returned to the Medicaid program. Therefore, we are not making any
recommendations to the State agency.




                                              11
                           TABLE OF CONTENTS




INTRODUCTION                                    1


    BACKGROUND                                  1

        Medicaid Program                        1

        Federal and State Requirements          1

        French Hospital Medical Center          1


    OBJECTIVE, SCOPE, AND METHODOLOGY           2

         Objective                              2

         Scope                                  2

         Methodology                            2


RESULTS OF REVIEW                               3





                                         111
                                           INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: "... when an
overpayment is discovered ... the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made."

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider's responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Providers must submit their annual Medicaid cost reports within 150 days after the end of the
provider fiscal year. Pursuant to section 14170(a)(l) of the California Welfare and Institutions
Code, the State agency has 3 years after the provider's fiscal year or the date of the submission,
whichever is later, to audit or review the cost report.

French Hospital Medical Center

French Hospital Medical Center (French), part of the Catholic Healthcare West system, is an
acute care hospital located in San Luis Obispo, California. French reported that it was



                                                 1

reimbursed by the State agency approximately $1.4 million for Medicaid services during
calendar year 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in French's
accounting records as of February 28,2009, for inpatient and outpatient services represented
overpayments that French should have returned to the Medicaid program.

Scope

French's inpatient and outpatient accounting records contained six Medicaid accounts with credit
balances as of February 28, 2009. We reviewed four outpatient accounts and two inpatient
accounts.

Our objective did not require an understanding or assessment of the complete internal control
system at French. We limited our review of internal controls to obtaining an understanding of
the policies and procedures that French used to review credit balances and report overpayments
to the State Medicaid program.

We performed our fieldwork at French's business office in Santa Maria, California, from April
through June 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed Federal and State requirements pertaining to Medicaid credit balances and
      overpayments;

   •	 reviewed French's policies and procedures for reviewing credit balances and reporting
      overpayments to the State agency;

   •	 reconciled French's February 28,2009, total credit balances report to the trial balance;

   •	 identified French's Medicaid credit balances from its accounting records and reconciled
      the Medicaid credit balances to French's Medicaid credit balances report as of
      February 28, 2009;




                                               2

   •	 reviewed French's Medicaid claim forms and remittance advices, patient accounts
      receivable detail, and additional supporting documentation for each credit balance
      account; and

   •	 coordinated our audit with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objective.

                                   RESULTS OF REVIEW

As of February 28, 2009, French's Medicaid credit balances did not include overpayments that
should have been returned to the Medicaid program. Therefore, we are not making any
recommendations to the State agency.




                                               3

